NATIONAL CREDIT UNION ADMINISTRATION

      OFFICE OF INSPECTOR GENERAL




                    REVIEW OF NCUA’S
                    RED FLAG REPORTS

                      Report #OIG-12-08
                        June 25, 2012




                     William A. DeSarno
                     Inspector General



Released by:                         Auditor-in-Charge:



James Hagen                          Allison D. Washington
Deputy Inspector General             Senior Auditor
                           TABLE OF CONTENTS


Section                                        Page



   I      EXECUTIVE SUMMARY                    1

  II      BACKGROUND                           3

  III     OBJECTIVES, SCOPE AND METHODOLOGY    4

  IV      PRIOR AUDIT COVERAGE                 4

  V       RESULTS                              6

                 Sample Results                7


 APPENDEX

  A           NCUA Management Comments         9
REVIEW OF NCUA’S RED FLAG REPORTS
OIG-12-08


                                       EXECUTIVE SUMMARY
The National Credit Union Administration (NCUA) Office of Inspector General (OIG)
conducted a self-initiated audit of NCUA’s Red Flag (Risk) reports. Our objective for
this review was to determine whether examiners were identifying and addressing high
risk areas. To accomplish this objective, we judgmentally sampled 25 credit unions, five
from each region, and analyzed the corresponding NCUA examination and supervision
reports and related documents. We also interviewed NCUA management and reviewed
NCUA guidance, policies and procedures.

We determined that regional management and staff were monitoring potential high
areas of risk and ensuring issues were or would be resolved. During our initial analysis
we found that of the 25 credit unions1 reviewed, examiners addressed high risk areas at
19 (76 percent) of the sampled credit union. We found that examiner actions to address
potential issues included performing follow-up for open Document of Resolution (DOR)
items; onsite and offsite contacts; drafting for issuance and/or issuing Regional Director
Letters 2 and Letters of Understanding and Agreement; 3 changing the overall CAMEL 4
rating; and elevating discussion items to examiner’s findings. For the remaining six
credit unions, the OIG determined that repeat and/or outstanding DOR items existed at
four of these credit unions. At another credit union, the examiner questioned both the
limited amount of time the state examiner spent onsite, and why the state examiner did
not review three of the seven risk areas during the regular examination. Finally, for the
remaining credit union, we found that while the state examiner identified risks, the state
examiner did not issue a DOR to this CAMEL 1 credit union. According to the
examiner, the state’s examination report offered appropriate solutions to reduce the
unacceptable risk.

We then conducted a second level review of the six credit unions where our initial data
showed examiners were not addressing high risk areas. We found additional
information was available for three of the six credit unions because examiners
completed their examinations of these credit unions after our initial data was pulled for
this review. The new examination documentation showed that at these three credit
unions both NCUA and State examiners followed-up and ensured the outstanding DOR
items were resolved. For the remaining three credit unions, the OIG contacted the
corresponding Regional Directors to determine what follow-up action the examiner took
since the last examination. Regional management indicated that follow-up contacts or
reviews were in process or were planned, as we will describe later in this report.


1
  Our sample included both federally chartered (federal) and state-chartered (state) credit unions.
2
  Regions attempt to correct noted problems by sending Regional Director Letters to the credit union in question. In
severe cases, the letters indicate that unless the credit union takes corrective action or makes reasonable progress,
NCUA may pursue administrative action.
3
  Letters of Understanding and Agreement (LUAs) serve as supervisory tools. Regional offices sometimes use LUAs
as informal administrative actions because other administrative actions often enforce violations of the terms of the
LUAs.
4
  The acronym CAMEL is derived from the following components: [C]apital Adequacy, [A]sset Quality,
[M]anagement, [E]arnings, and [L]iquidity/Asset/Liability Management.



                                                          1
REVIEW OF NCUA’S RED FLAG REPORTS
OIG-12-08

Accordingly, we are making no formal recommendations in this report. We appreciate
the courtesies and cooperation NCUA management and staff provided to us during this
review.




                                         2
REVIEW OF NCUA’S RED FLAG REPORTS
OIG-12-08


BACKGROUND

A red flag is an indicator/warning sign of a potential problem or issue. In the course of
conducting material loss reviews, we analyzed call report data which highlighted areas
of increased risk and noted that this information might have helped examiners to identify
potential safety and soundness issues. NCUA risk reports likewise help target credit
unions that have potential high risk areas.

In 2002, NCUA implemented a Risk-Focused Examination (RFE) Program. The risk-
focused supervision procedures often included reviewing off-site monitoring tools and
risk evaluation reports, as well as on-site work. The RFE process included reviewing
seven categories of risk: Credit, Interest Rate, Liquidity, Transaction, Compliance,
Strategic, and Reputation. Examination planning tasks included: (a) reviewing the prior
examination report to identify the credit union’s highest risk areas and areas that require
examiner follow-up, and (b) analyzing Call Reports and direction of the risks detected in
the credit union’s operation and management’s demonstrated ability to manage those
risks. Additionally, during 2009, NCUA developed a new examination policy that
resulted in additional minimum required examination procedures based on a national
review of risk. This policy directed a periodic national review of risk issues and
adjustment to the minimum review procedures. NCUA’s intent was to shape its
examination and supervision program to consistently identify and mitigate emerging
risks in response to the changing environmental factors within the credit union industry. 5

NCUA uses a CAMEL Rating System in examining credit unions to provide an accurate
and consistent assessment of a credit union's financial condition and operations. The
CAMEL rating includes consideration of key ratios, supporting ratios, and
trends. Generally, the examiner uses the key ratios to evaluate and appraise the credit
union’s overall financial condition. During an examination, examiners assign a CAMEL
rating, which completes the examination process.

NCUA periodically issues additional guidance and enacts program changes as part of
its continual improvement of the examination process. Accordingly, NCUA is
establishing a uniform credit union supervision process for all regions. The National
Supervision Policy Manual (NSPM) 6 will replace the individual regional supervision
manuals and policies and will help ensure credit unions are treated more consistently
from region to region. In addition, NCUA's Office of Examination and Insurance (E&I)
implemented a new national examination and supervision quality control review process
in June 2009. Under this process, E&I staff periodically sample examination and
supervision reports from each region and review the most recent examination report,
the administrative record, and the risk profile of each selected credit union. This new
process will help E&I staff determine whether examiners addressed negative trends and
included effective recommendations to resolve significant problems within acceptable
timeframes. Furthermore, on November 20, 2008, the NCUA Board approved changes

5
  NCUA Risk-Focused Examinations – Minimum Scope Requirements, dated January 5, 2012 (Instruction Number
5000.20, Revision 3).
6
  As of the date of this report, the NSPM is in draft form with a planned implementation of July 2012.



                                                    3
REVIEW OF NCUA’S RED FLAG REPORTS
OIG-12-08

to the RFE scheduling policy, creating the 12-Month Program. 7 NCUA indicated these
changes were necessary due to adverse economic conditions and distress in the
nation’s entire financial structure, which placed credit unions at greater risk of loss.
NCUA stated that the 12-Month Program will provide more timely relevant qualitative
and quantitative data to recognize any sudden turn in a credit union's performance.
Moreover, beginning in 2011, all federal credit unions regardless of asset size and all
federally insured state credit unions with assets greater than $250 million are required
to have an annual examination completed once every calendar year. 8

OBJECTIVE, SCOPE AND METHODOLOGY

The objective of this audit was to determine whether examiners were identifying and
addressing high risk areas. To accomplish our objective, we judgmentally sampled 25
credit unions, 9 and reviewed and analyzed the corresponding NCUA examination and
supervision work papers, reports and related documents. We also reviewed NCUA
guidance, policies and procedures, and interviewed headquarters and regional staff.

We used computer-processed data from NCUA’s Automated Integrated Regulatory
Examination Software (AIRES) and Credit Union Online systems. We did not test
controls over these systems. However, we relied on our analysis of information from
management reports, correspondence files, and interviews to corroborate data obtained
from these systems to support our audit conclusions. We provided NCUA management
officials a discussion draft of this report and included their comments where appropriate.

We conducted this performance audit from January 2012 through June 2012 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.

PRIOR AUDIT COVERAGE

We identified one NCUA OIG report issued within the past 5 years related to this
subject.

OIG Capping Report on Material Loss Reviews, Report Number OIG-10-20, dated
November 23, 2010.

NCUA OIG identified several shortcomings related to NCUA and SSA supervision
efforts. Specifically, we identified examiner deficiencies in quality control efforts and

7
  The 12-month program requires either an examination or a material on-site supervision contact within a 10 to 14
month timeframe based on risk-based scheduling eligibility.
8
  NCUA Annual Examination Scheduling, dated May 28, 2010 (Instruction Number 5000.15, Revision 3).
9
  We judgmentally sampled five credit unions from each of NCUA’s five regions.



                                                         4
REVIEW OF NCUA’S RED FLAG REPORTS
OIG-12-08

examination procedures. We recommended that NCUA management issue a national
instruction placing more emphasis on quarterly monitoring of Call Reports including
developing offsite monitoring triggers and specific procedures to more easily “red flag”
areas to be investigated as well as provide a specific time allocation. NCUA
management agreed with the recommendation and stated that the Office of
Examination and Insurance (E&I) planned to issue a new NSPM that would emphasize
the importance of off-site monitoring of institutions via the Call Report, FPR, and
National Risk Reports. The new manual would, in part, provide a means to identify
which credit unions represent the most risk.

As mentioned above, the NCUA has since issued a new, draft NSPM and intends to
implement it in July 2012.




                                            5
REVIEW OF NCUA’S RED FLAG REPORTS
OIG-12-08


RESULTS IN DETAIL

We determined that NCUA regional management and staff were monitoring potential
high areas of risk and ensuring issues were or would be resolved in a timely manner.

During our initial analysis, we determined that as of January 26, 2012, of the 25 credit
unions reviewed, examiners addressed high risk areas at 19 (76 percent) of the
sampled credit unions. We found that examiner actions to address issues such as
concentration, liquidity, and interest rate risks at the credit unions included performing
follow-up for open DOR items; actual or planned onsite and offsite contacts; drafting for
issuance and/or issuing Regional Director Letters and LUAs; changing the overall
CAMEL rating; and elevating discussion items to examiner’s findings. For the remaining
six credit unions, the OIG determined that repeat and/or outstanding DORs items
existed at four of these credit unions. At another credit union, the examiner questioned
both the limited amount of time the state examiner spent onsite and why the state
examiner did not review three of the seven risk areas during the regular examination.
Finally, for the remaining credit union, we found that while the state examiner identified
risks, the state examiner did not issue a DOR to this CAMEL 1 credit union. The
examiner indicated that the state’s examination report offered appropriate solutions to
reduce the unacceptable risk. 10

Conversely, a subsequent review of the examination documentation for these six
remaining credit unions showed that both NCUA and State examiners followed-up at
three of the credit unions and ensured the outstanding DOR items were resolved. The
examiners completed their reviews of these credit unions after we had already pulled
our initial data. For the remaining three credit unions, the OIG contacted the
corresponding Regional Directors to determine what follow-up action the examiner took
since the last examination. Regional management indicated that follow-up contacts or
reviews were in the process of being taken or were planned.

We believe that regional management and staff are monitoring potential high areas of
risk and ensuring issues were or would be resolved. Accordingly, we are not making
any formal recommendations at this time.




10
  For the last two credit unions, the state examiners conducted independent examinations and the NCUA examiners
performed offsite reviews and analyses of the state examiners’ examination documents.



                                                       6
REVIEW OF NCUA’S RED FLAG REPORTS
OIG-12-08

Sample Results

We determined that regional management and staff were monitoring potential high
areas of risk and ensuring that issues were or would be resolved. To determine
whether high risk areas (red flags) were identified and addressed, the OIG reviewed
examination documentation to see what actions examiners took or planned to take to
mitigate potential problems. As of January 26, 2012, our initial analysis showed that of
the 25 credit unions reviewed, examiners identified and addressed high risk areas at 19
(76 percent) of the sampled credit unions. Specifically, examiners took the following
actions at these 19 credit unions:


                                                                                   Number of
                                Examiner Actions
                                                                                  Credit Unions
            DOR Follow-up                                                               6
            Actual or Planned On/Off Site Contacts                                      5
            LUA/RDL Issued or Drafted                                                   4
            Changed Overall CAMEL Rating                                                3
            Elevated Discussion Items to Examiner Findings                              1
                                                        Total                           19

For the remaining six credit unions we found that at four of these credit unions, 11
examiners did not ensure outstanding and/or repeat DORs were resolved by their due
dates. We also found that for one credit union, the NCUA examiner questioned the fact
that the state examiner did not review three of the seven risks areas and only spent two
days onsite at this credit union. At the final remaining credit union, we found that
neither NCUA nor State examiners conducted any examinations or contacts during
2011 despite the examiners identifying lending control and loan underwriting issues
during the 2010 examination. 12 Additionally, although the state examiner identified
risks, the state examiner did not issue a DOR to this CAMEL 1 credit union. According
to the examiner, the state’s examination report offered appropriate solutions to reduce
the unacceptable risk.

To ensure we captured updated information, we conducted a subsequent review of
examination documentation for the six remaining credit unions to determine whether
examiners preformed any follow-up or completed examinations after our initial review.
We found that both NCUA and State examiners completed regular examinations at
three of these six credit unions. For these three credit unions, the examiners indicated
that the outstanding and past due DOR items were resolved by credit union
management. For the remaining three credit unions, the OIG contacted the
corresponding Regional Directors to determine what follow-up actions the examiner(s)
took since the last examination to (1) monitor the credit union and (2) ensure corrective
actions were taken.
11
 One of these four credit unions was a federally insured state credit union.
12
 According to the Regional Director, the State Supervisory Authority conducts credit union examinations on a 12-18
month rotation basis.



                                                        7
REVIEW OF NCUA’S RED FLAG REPORTS
OIG-12-08

With regard to one of the credit unions with past due DOR items, the NCUA Regional
Director informed us that the examiner had been in contact with the credit union by
phone and two DOR items were resolved during the regular examination completed
during March 2012. In addition, the Regional Director stated the examiner expects the
DOR item on net worth to remain outstanding, with an expected resolution date of June
30, 2012. According to the Regional Director since given the net worth remains a
concern, the continuation of the DOR item on net worth was warranted and was
consistent with Regional and National policy.

For another credit union, the Regional Director stated that the State Supervisory
Authority (SSA) did not identify material risks to the National Credit Union Share
Insurance Fund. According to the Regional Director, the three risk areas not reviewed
were all rated as low risk and the scope of the exam appeared to be appropriate given
the risk profile of the credit union. The Regional Director further stated the SSA offered
acceptable solutions to the issues found and the supervision plans were reasonable
considering the credit union's risk profile.

For the final credit union, the Regional Director, while noting that the credit union’s net
worth to total assets was very healthy, stated that the District Examiner had reviewed
the last examination and concurred with the examiner’s CAMEL 1 rating. The Regional
Director also stated that consistent with Regional and National policies, no onsite
contacts were planned due to the asset size and CAMEL rating. According to the
Regional Director, future supervision would consist of a review of the next examination
which would occur within the next three months which is consistent with the SSA’s
target exam completion range of 12-18 months. Regional staff would then determine
whether the issues were resolved conclusively.

We believe that regional management and staff were monitoring potential high areas of
risk and ensuring issues were or would be resolved. Accordingly, we are not making
any formal recommendations at this time.




                                             8
REVIEW OF NCUA’S RED FLAG REPORTS
OIG-12-08

Appendix A: NCUA Management Comments




                                    9
